                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: 108090051                                                                    Page 1 of 1



         This case was opened pursuant to an allegation that a PI 1 at a university2 had submitted false
         expense reports for reimbursements charged to NSF· awards 3 and another agency award. 4 We
         reviewed award documentation and determined that the PI had knowingly submitted false
         expense reports for personal gain. The PI pled guilty to one count of violation of 18 U.S.C.
         § 641, misdemeanor theft of government funds, was sentenced to serve one year unsupervised
         probation, and paid restitution to NSF and the other agency of $19,819.49. The PI failed to
         respond to a civil complaint under the False Claims Act, and the court entered a default judgment
         against the PI for treble damages (minus the restitution) of $84,301.75 plus penalties of
         $110,000. NSF debarred the PI for three years.

         Accordingly, this investigation is closed.




NSF OIG Form 2 (11102)
